U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 3, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Brandon Jones v. United States of America
S.Ct. No. 20-1092

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 5,
2021, and placed on the docket on February 11, 2021. The government’s response is due on
March 15, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 14, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1092
JONES, BRANDON
USA

LUCAS ARMENT ANDERSON
ROTHMAN, SCHENIDER, SOLOWAY & STERN
100 LAFAYETTE STREET
SUITE 501
NEW YORK, NY 10013
212-571-5500
LANDERSON@RSSSLAW.COM
JOHN PATRICK ELWOOD
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-942-5992
JOHN.ELWOOD@ARNOLDPORTER.COM

